HHS/OIG-Audit--"Assist Audit of HCFA's Y 1997 Financial Statements at Blue Cross Blue Shield of Florida, (A-04-98-03008)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Assist Audit of HCFA's FY 1997 Financial Statements at Blue Cross Blue Shield of Florida," (A-04-98-03008)
May 26, 1998
Complete
Text of Report is available in PDF format (1.88 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We performed our audit work at Blue Cross and Blue Shield of Florida (BCBSFL) serving as both the fiscal intermediary
and carrier for the State of Florida. Our audit objective is to assist in expressing an opinion on the Health Care Financing
Administration's (HCFA) Fiscal Year (FY) 1997 combined financial statements and to report on their compliance with laws
and regulations. An aspect of overall work is to determine whether the Medicare fee-for-service benefit payments expenses
are made in accordance with the provisions of Title XVIII and implementing regulations in Title 42 of the Code of Federal
Regulations. Specifically, we were to determine if services were: (1) furnished by certified Medicare providers to eligible
beneficiaries; (2) reimbursed by Medicare contractors in accordance with Medicare laws and regulations; and (3) medically
necessary, accurately coded, and sufficiently documented in the beneficiaries' medical records.
We selected a stratified random sample of 50 beneficiaries for whom BCBSFL had adjudicated 779 claims during the second
quarter of FY 1997 - our audit period. The BCBSFL paid $412,703 for these claims. With the assistance of BCBSFL and peer
review organization medical review personnel, we identified overpayments totaling $41,126 for these claims. The overpayments
occurred for various reasons, including insufficient documentation, incorrect coding of procedures, and lack of medical
necessity.
Other independent auditors under contract with the Office of Inspector General identified reportable conditions with respect
to electronic data processing (EDP) controls and non-claims activities and addressed recommendations in separate reports
to BCBSFL.
We recommend that BCBSFL: (1) initiate recovery of the overpayments and periodically provide us with the status of recovery
actions; and (2) address the recommendations made by the independent auditors with respect to EDP controls and non-claims
activities and provide us a copy of such responses.
In a written response to our draft report, BCBSFL agreed to seek recovery of the overpayments and keep us apprised of
the results. Also, BCBSFL generally agreed with the recommendations made by the independent auditors and has taken, or
is taking, correction actions. Further, BCBSFL suggested that our report contain descriptions of the sampling methodology
employed. This methodology is being described in the nationwide report to which this report contributes. Finally, BCBSFL
agreed to address the concerns that we expressed in the "Other Matters" section of the report concerning ambulatory
surgical center claims and cash receipts.